No. 20-695

In the Supreme Court of the United States
DEREK PIERSING, on Behalf of Himself and All Others Similarly Situated,
Petitioner,
v.
DOMINO’S PIZZA FRANCHISING LLC; DOMINO’S PIZZA MASTER ISSUER LLC; DOMINO’S
PIZZA LLC; AND DOMINO’S PIZZA, INC.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Reply Brief for the
Petitioner contains 2,937 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 4, 2021

Leah M. Nicholls
Public Justice, P.C.
1620 L Street NW, Suite 630
Washington, D.C. 20036

